                                 EXPORT-IMPORT BANK
 OSVALDO L. GRATACÓS             of the UNITED STATES
 INSPECTOR GENERAL




                  Mexican Farm Owner Sentenced For Scheme to
                   Defraud the Export-Import Bank of the U.S.

Washington, DC April, 25, 2013– The Office of Inspector General (OIG) for the Export-Import
Bank of the United States (Ex-Im Bank) announced that a Mexican farm owner was sentenced
to serve 60 months’ probation for his role in a scheme to defraud Ex-Im Bank of
approximately $825,563.

Jaime Galvan-Guerrero, 40, was sentenced by Judge Kathleen Cardone in U.S. District Court in
El Paso, TX. In addition to his term of probation, Galvan was ordered to pay $825,563 in
forfeiture and a $2,000 fine. Galvan, who is a citizen of Mexico, plead guilty on August 3, 2011,
to one count of conspiracy to commit wire fraud and one count of wire fraud in connection
with a scheme to defraud Ex-Im Bank of approximately $825,000.

According to court documents, Galvan was the purported owner of a farm in Delicias,
Chihuahua, Mexico. Galvan admitted that he and co-conspirators created false invoices,
shipping documents, financial statements, and other documents that were submitted to a
Baltimore, MD finance company. The false documents, which falsely purported to purchase
construction equipment, were ultimately submitted to Ex-Im Bank to guarantee the financial
transaction. Galvan admitted that, in fact, none of the equipment was purchased or exported
to Galvan in Mexico. Instead, Galvan and his co-conspirators split the Ex-Im Bank insured
loan proceeds and ultimately Galvan defaulted on his loan in late 2007, causing a loss to Ex-Im
Bank and the U.S. government of $725,522. Between 2007 and 2010, Galvan paid back most
of his debt to the government. After his arrest in 2010, Galvan paid off the remaining balance
of approximately $150,000 to Ex-Im Bank.

The U.S. Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s Office,
Western District of Texas, El Paso Division prosecuted the case. The case was investigated by
Ex-Im Bank OIG, Homeland Security Investigations in El Paso; Internal Revenue Service-
Criminal Investigation in Washington, D.C., and the U.S. Postal Inspection Service in
Washington, D.C.

Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs by filling
gaps in private export financing. Ex-Im Bank provides a variety of financing mechanisms to
help foreign buyers purchase U.S. goods and services.

Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or regulations,
fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of authority connected


               811 Vermont Avenue, N.W. Washington, D.C. 20571
with Ex-Im Bank's programs and operations. Additional information about the OIG can be
found at www.exim.gov/oig. Complaints and reports of waste, fraud, and abuse related to Ex-
Im Bank programs and operations can be reported to the OIG hotline at 888-OIG-EXIM (888-
644-3946) or via email at IGhotline@exim.gov.

Media Contact: 202-565-3908

                                           ###
